TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Efforts to Update Aging Computer Hardware
                  Are Underway, but Program Improvements
                         Are Needed to Minimize Risks



                                        November 6, 2007

                              Reference Number: 2008-20-002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          November 6, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Efforts to Update Aging Computer Hardware Are
                             Underway, but Program Improvements Are Needed to Minimize Risks
                             (Audit # 200620021)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) implemented effective controls to identify and replace aging equipment components that
 could adversely affect its ability to meet its mission if the equipment components were to fail.
 This review is part of the Treasury Inspector General for Tax Administration’s Fiscal
 Year 2007 Annual Audit Plan coverage under the major management challenge of Modernizing
 the IRS.

 Impact on the Taxpayer
 The IRS estimates it should spend $180 million annually to adequately maintain and replenish its
 computer hardware and has initiated several actions to address the risks associated with the aging
 computer hardware. However, the information used to estimate the size and effect of the aging
 computer hardware could be improved. The IRS established a goal to obtain increased resources
 to address the aging computer hardware as one of its highest priorities, but permanent program
 funding remains uncertain and a disciplined investment management governance process is
 needed for all infrastructure initiatives/activities. As a result, the IRS may not fund the highest
 priority projects to ensure investment decisions result in the most efficient use of available
 resources on behalf of taxpayers.

 Synopsis
 The IRS continues to emphasize that the core of tax administration processing relies heavily on
 critical systems designed in the 1960s, thereby hindering its ability to accomplish its mission and
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



provide better service to taxpayers due to the inherent limitations of these systems. The IRS also
reports the risk to tax administration is significant because critical business systems are currently
operating on aged computer hardware (i.e., hardware that has exceeded its useful life). At the
beginning of Fiscal Year 2006, the aged hardware was estimated to be valued at $276 million,
with an additional $161 million in hardware becoming aged during Fiscal Year 2006.
The IRS has initiated several actions to address the risks associated with the aging computer
hardware issue. On September 28, 2006, it hired a contractor to develop a Sustaining
Infrastructure Program, which is intended to provide a comprehensive approach to manage all
infrastructure requirements and establish a governance structure to prioritize competing
initiatives/activities (i.e., Infrastructure Roadmap, End of Life
Equipment Replacement (Rust Replacement), and Security
Infrastructure). The IRS is scheduled to complete                        Although the IRS has
implementation of the Sustaining Infrastructure Program in            initiated several actions to
Calendar Year 2008. As a result, the IRS identified as one of       address the aging computer
                                                                     hardware risks, the size and
its highest budget priorities the need to obtain increased          effect of the aging computer
resources to reverse the erosion of its basic computer               hardware issue is unknown
hardware. Also, the Financial Management Services                       and the source(s) for a
organization established a separate accounting code in Fiscal           permanent increase in
Year 2007 to track funds spent to replace aging computer                 funding has not been
                                                                               identified.
hardware.
The Information Technology Asset Management System is
the primary control and official IRS computer equipment database used to record all computer
inventories. In Fiscal Year 2005, the IRS analyzed Information Technology Asset Management
System data to determine the size of the aging computer hardware inventory and the estimated
cost to adequately maintain and replenish its computer hardware. Our review of the information
used to estimate the size and effect of the aging computer hardware issue determined the
information could be improved. For example, the estimated cost to maintain and replenish the
computer hardware needs to be updated, and reported information technology problems and
reduced enforcement revenue could not be linked to aged computer hardware. Also, because the
IRS considered the effect of the SASSER worm1 to be related to aged hardware and software,
unreliable information supporting the Fiscal Year 2007 budget request was reported to the Office
of Management and Budget (see Appendix IV). While there is risk associated with the aging
computer hardware, the data provided by the IRS should be improved to provide more complete
and accurate management information related to the negative impact the aging infrastructure is
having on tax administration. Therefore, management needs to improve its information systems
and data collection methodology to help support the need for new equipment.


1
  A computer worm is a self-replicating computer program that sends copies of itself to other computer terminals on
a network. The SASSER worm exploited a feature (vulnerability) of the Microsoft operating system generating
excessive network traffic and causing infected systems to become unusable due to constant rebooting.
                                                                                                                  2
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



The IRS stated it would augment the current $45 million it was spending to address the aging
computer hardware issue by reallocating an additional $45 million in each of Fiscal Years 2006
through 2008 from savings achieved through program efficiencies. Our review of the Fiscal
Year 2006 funds permanently reallocated to the computer hardware budget found the IRS was
able to reallocate only $34 million instead of the reported $45 million. The IRS did exceed its
Fiscal Year 2006 target computer hardware budget, but this was accomplished by identifying
other one-time funding sources such as a labor surplus. On June 18, 2007, IRS management
advised us they had permanently transferred $11 million from the Fiscal Year 2007
Modernization and Information Technology Services (MITS) organization budget to the
computer hardware budget. In Fiscal Year 2007, the IRS used $45 million in user fees2 and
enrolled agent fees3 to fund additional computer hardware needs. Realigning user fees to address
computer hardware needs does not constitute a permanent increase in computer hardware
funding because user fee funds require annual reallocation.
The Infrastructure Executive Steering Committee was established to ensure the successful
implementation and integration of modernization projects and related program activities for the
Infrastructure portfolio. Our review of the End of Life Equipment Replacement activity
determined the MITS organization has not included expenditures from this activity as part of its
investment governance process. MITS organization management advised us that several actions
have been taken to improve the discipline of the governance process over infrastructure
investments.
The Government Performance and Results Act of 19934 was enacted by Congress to hold
agencies accountable for achieving business results by requiring agencies to adopt performance
measures to assess performance. The MITS organization has measures for asset management,
customer satisfaction, incident management, and the enterprise service desk. The contractor
assisting the IRS in developing its Sustaining Infrastructure Program has been assigned the task
of formalizing a performance measurement process for the overall Sustaining Infrastructure
Program and the individual initiatives/activities. Management advised us that once the
Sustaining Infrastructure Program is implemented the MITS organization will have a process in
place to assess its efforts in addressing the aging computer hardware problem.




2
  User fees are charges individuals and businesses are required to pay for services such as installment agreements
and photocopies.
3
  An enrolled agent is a person who has earned the privilege of representing taxpayers before the IRS. Enrolled
agents pay fees for a test (if applicable) and program enrollment.
4
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                                     3
                Efforts to Update Aging Computer Hardware Are Underway, but
                     Program Improvements Are Needed to Minimize Risks



Recommendations
We recommended the Chief Information Officer (1) implement procedures to improve the
accuracy and completeness of the inventory data and periodically prepare an updated aged
computer hardware estimate, (2) improve the integration of asset/inventory management with
incident and problem management so problems related to old computer hardware issues can be
readily identified and the IRS can report a more accurate assessment of the negative impact of
aging computer hardware, (3) permanently allocate the necessary funds within the MITS
organization budget to maintain and replenish the aging computer hardware, (4) ensure the End
of Life Equipment Replacement activity is included in the Infrastructure Executive Steering
Committee governance process, and (5) establish a performance measurement process providing
periodic monitoring and reporting of Sustaining Infrastructure Program accomplishment.

Response
IRS management agreed with four of the five recommendations but did not agree with
Recommendation 3. Management believes they cannot commit to permanently allocating funds
in future years without fully understanding tax administration requirements and budget
constraints. However, they agreed that sustaining the information technology infrastructure is
one of their highest priorities and will realign the base budget whenever appropriate, subject to
availability.
The IRS will identify and correct discrepancies in the Information Technology Asset
Management System data, implement processes to improve and maintain the accuracy of the
Information Technology Asset Management System data and produce quarterly estimates of the
aged computer hardware and current estimates of the replacement costs, develop a business case
for using a software tool to improve integration of asset/inventory management with incident and
problem management, provide oversight of the End of Life Equipment Replacement activity, and
implement outcome measures and a monitoring process to report on the IRS’ progress in
reducing its aged asset inventory. Management’s complete response to the draft report is
included as Appendix V.

Office of Audit Comment
The Chief Information Officer disagreed with our recommendation to permanently allocate funds
within the MITS organization’s budget to maintain and replenish the aging computer hardware
because the Chief Information Officer cannot commit to permanently allocating funds in future
years without fully understanding tax administration requirements and budget constraints. We
disagree and believe the Chief Information Officer should honor the commitment made to the
IRS Oversight Board on May 23, 2006, that the IRS would augment the current $45 million
being spent on infrastructure by reallocating an additional $45 million from program efficiencies

                                                                                                    4
               Efforts to Update Aging Computer Hardware Are Underway, but
                    Program Improvements Are Needed to Minimize Risks



in Fiscal Years 2006 through 2008. In addition, the IRS reported in the Fiscal
Year 2008 Congressional Budget Submission it had identified efficiencies in the Fiscal
Year 2006 information technology budget that permitted the permanent reallocation of
$45 million to address the aging computer hardware issue. However, our review of the Fiscal
Year 2006 funds permanently reallocated to the computer hardware budget found the IRS was
able to permanently reallocate only $34 million instead of the reported $45 million.
In the IRS response to the draft report, management provided several comments that make
incorrect inferences. The management comments and related Office of Audit Comments are
provided in appropriate sections of the report.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                              5
                      Efforts to Update Aging Computer Hardware Are Underway, but
                           Program Improvements Are Needed to Minimize Risks




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Several Actions Have Been Taken to Address the Aging Computer
          Hardware Issue..............................................................................................Page 3
          Information Used to Estimate the Size and Effect of the Aging
          Computer Hardware Could Be Improved .....................................................Page 4
                    Recommendation 1:........................................................Page 10

                    Recommendation 2:........................................................Page 11

          Permanent Program Funding Remains Uncertain.........................................Page 12
                    Recommendation 3:........................................................Page 13

          A Disciplined Investment Management Governance Process Is Needed
          for All Infrastructure Initiatives/Activities ...................................................Page 14
                    Recommendation 4:........................................................Page 15

          Performance Measures Are Needed to Assess the Success of Efforts to
          Address the Aging Computer Hardware Issue..............................................Page 16
                    Recommendation 5:........................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Outcome Measure ................................................................Page 23
          Appendix V – Management’s Response to the Draft Report .......................Page 24
       Efforts to Update Aging Computer Hardware Are Underway, but
            Program Improvements Are Needed to Minimize Risks




                      Abbreviations

IRS             Internal Revenue Service
MITS            Modernization and Information Technology Services
                Efforts to Update Aging Computer Hardware Are Underway, but
                     Program Improvements Are Needed to Minimize Risks




                                      Background

The Internal Revenue Service (IRS) continues to emphasize that the core of tax administration
processing relies heavily on critical systems designed in the 1960s, thereby hindering its ability
to accomplish its mission and provide better service to taxpayers due to the inherent limitations
of these systems. At the same time, the IRS is faced with the challenge of keeping pace with the
growing volume of electronic submissions, payments, and refund transactions, which will
continue to place a greater demand on it to provide a modernized and secure information
technology infrastructure (e.g., desktop computers, laptop computers, printers, servers, data
storage, and communications equipment). The IRS reports the risk to tax administration is
significant because critical business systems are currently operating on aged computer hardware
(i.e., hardware that has exceeded its useful life). With the amount of aged computer hardware
increasing every year, the IRS Commissioner testified to Congress on March 29, 2007, that
failing to replace the aged computer hardware will lead to increased maintenance costs and will
increase the risk of disruption to business operations. The IRS estimates more than 50 percent of
the laptop computers supporting Compliance organization employees are over-age and need
replacement, which has resulted in increased downtime,
reduced ability to communicate effectively, and delays in
                                                                    The IRS estimates it needs
retrieving taxpayer data that are vital to daily compliance and        to spend $180 million
enforcement activities.                                               annually to adequately
                                                                   maintain and replenish its
The IRS identified as one of its highest budget priorities the        computer hardware.
need to obtain increased resources to reverse the erosion of its
basic computer hardware. In December 2003, the IRS
received a consultant’s analysis and findings from a
comparison of the IRS information technology investments in hardware to private sector
benchmark levels for equivalent financial services companies. The consultant’s report did not
state a specific dollar amount the IRS should be investing in hardware, but IRS management
advised us that the consultant stated the IRS’ investment in hardware was approximately
$195 million below private sector benchmark levels. In 2005, the IRS validated the consultant’s
estimate and calculated it should be spending $180 million annually to adequately maintain and
replenish its computer hardware based on industry standards.
The IRS reported it was spending only about $45 million each year for this purpose and the gap
in computer hardware replenishment spending had resulted in a significant amount of aged
hardware that cannot adequately support its day-to-day business. To determine the amount of
aged computer hardware and the cost to replace it, the IRS established a refresh cycle by
equipment category (e.g., servers, routers, and desktop computers) based on industry standards
and an estimated replacement cost. For example, it considers the useful life of a laptop computer
to be 3 years with a replacement cost of $2,150. It estimated the amount of aged computer

                                                                                           Page 1
                       Efforts to Update Aging Computer Hardware Are Underway, but
                            Program Improvements Are Needed to Minimize Risks



hardware at the beginning of Fiscal Year 2006 was $276 million based on the established
equipment refresh cycles and associated replacement costs. Figure 1 provides a breakdown of
the aged computer hardware by equipment category at the beginning of Fiscal Year 2006.
                              Figure 1: Backlog of Aged Computer Hardware
                                   at the Beginning of Fiscal Year 2006

                       $70

                       $60

                       $50

                       $40
     Millions




                       $30

                       $20

                       $10

                         $0
                                                      s              m        ter
                                                                                 s           s         rs         er s       r ag
                                                                                                                                 e              es
                                irin
                                     g
                                                 uter          y ste       pu           uter    r inte      Se
                                                                                                               r v
                                                                                                                           to              itch
                            s/W              rib            S
                                                                        om          om
                                                                                      p        P                          S
                                                                                                                                      s/S
                                                                                                                                         w
                        o n            D is t         g ing           C            C                               Da
                                                                                                                       ta
                                                                                                                                  e r
                      ti           all              a              p
                                                                              to p                                              ut
                 nica            C               ess        e skto         a p                                              Ro
               u               c              M                          L
            mm           m at i        oi ce              D
          o          t o             V
       lec       Au
    Te
  Source: The Modernization and Information Technology Services organization.

This review was performed in Modernization and Information Technology Services (MITS)
organization offices at the IRS National Headquarters in New Carrollton, Maryland, during the
period August 2006 through April 2007. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                                                                                     Page 2
                 Efforts to Update Aging Computer Hardware Are Underway, but
                      Program Improvements Are Needed to Minimize Risks




                                 Results of Review

Several Actions Have Been Taken to Address the Aging Computer
Hardware Issue
The Internal Revenue Manual states the Chief Information Officer is responsible for managing
information resources and technology and the IRS long-range objectives and strategies for
improving tax administration through modernizing the tax administration system. The Chief
Information Officer also has responsibility for strategic technology planning, data administration,
technology standards, and the purchase of information technology products and services.
The IRS has initiated several actions to address the risks associated with the aging computer
hardware issue. On September 28, 2006, it hired a contractor to develop a Sustaining
Infrastructure Program, which is intended to provide a comprehensive approach to manage all
infrastructure requirements and establish a governance structure to prioritize competing
initiatives/activities (i.e., Infrastructure Roadmap, End of Life Equipment Replacement (Rust
Replacement), and Security Infrastructure). The IRS is scheduled to complete implementation of
the Sustaining Infrastructure Program in Calendar Year 2008. Figure 2 contains a brief
description of the different initiatives/activities.
                        Figure 2: Infrastructure Initiatives/Activities

          Initiative/Activity                                Description
 Infrastructure Roadmap               This initiative is intended to identify infrastructure
                                      investment opportunities (including computer hardware)
                                      with potential for significant return on investment or
                                      savings, risk mitigation, service delivery improvements,
                                      security, and compliance and to better align information
                                      technology investments with business needs.
 End of Life Equipment                This activity is intended to fund the replacement of aging
 Replacement (Rust Replacement)       computer hardware components.
 Security Infrastructure              This initiative is intended to fund projects to enhance the
                                      security of the information technology infrastructure.
Source: The MITS organization.

To address the annual spending deficit for the aging computer hardware issue, the IRS planned to
augment the current $45 million it was spending to sustain the hardware by reallocating an
additional $45 million in each of Fiscal Years 2006 through 2008 from savings it achieved
                                                                                            Page 3
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



through program efficiencies. The additional funding would result in a total increase of
$135 million by Fiscal Year 2008 to achieve the spending goal of $180 million each year to
maintain and replenish the computer hardware. To address the backlog of aged hardware
inventory, the IRS Fiscal Year 2008 Congressional Budget Submission requested an additional
$60 million. The additional funds will also be requested in Fiscal Years 2009 through 2011, for
a total of $240 million over a 4-year period.
The IRS’ commitment to improve the maintenance and replenishment of its computer hardware
has been demonstrated by the reallocation and expenditure of $362.8 million from Fiscal
Year 2005 through March 8, 2007. This expenditure amount represents an increase of
169 percent over the $135 million spent on aging computer hardware in the prior 3 fiscal years.
In addition, the Financial Management Services organization established a separate accounting
code in Fiscal Year 2007 to track funds spent to replace aging computer hardware. While the
Financial Management Services organization had previously tracked the expenditures by
function (e.g., Enterprise Operations, Enterprise Networks), the funds allocated to address the
aging computer hardware issue were not uniquely identified in the Integrated Financial System.1

Information Used to Estimate the Size and Effect of the Aging
Computer Hardware Could Be Improved
The Clinger-Cohen Act of 19962 requires each agency to ensure senior management is provided
with timely, verifiable data as one of the elements in maximizing the value and assessing and
managing the risk of information technology acquisitions. To have a successful information
technology investment management process, the agency must ensure management decisions are
based on complete and current information. In fact, informed management decisions can occur
only if accurate, reliable, and up-to-date information is part of the decision-making process.
Figure 3 shows the IRS has reported it will need a total of $850 million from Fiscal Year 2006 to
Fiscal Year 2010 to replenish its aging computer equipment and prevent a significant risk to tax
administration due to computer equipment failure.




1
  The Integrated Financial System is intended to address administrative financial management weaknesses. The first
release of the Integrated Financial System will include the Accounts Payable, Accounts Receivable, General Ledger,
Budget Execution, Cost Management, and Financial Reporting activities. A future Integrated Financial System
release will be needed to fully resolve all administrative financial management weaknesses.
2
  Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                            Page 4
                Efforts to Update Aging Computer Hardware Are Underway, but
                     Program Improvements Are Needed to Minimize Risks



                  Figure 3: Estimated Cumulative Replacement Cost
                           of the Aged Computer Equipment

                                  $1,000

                                   $800
                       Millions




                                   $600

                                   $400

                                   $200

                                     $0
                                           2006   2007      2008       2009   2010
                                                         Fiscal Year


                    Source: The MITS organization.

The Information Technology Asset Management System is the primary control and official IRS
computer equipment database used to record all computer inventories. In Fiscal Year 2005, the
IRS analyzed Information Technology Asset Management System data to determine the size of
the aging computer hardware inventory and the estimated cost to adequately maintain and
replenish this hardware. At the beginning of Fiscal Year 2006, the aged hardware was estimated
to be valued at $276 million, with an additional $161 million in hardware becoming aged during
Fiscal Year 2006.

The IRS hired a contractor to review the inventory data
Due to continuing concerns about the aging computer equipment, the IRS hired a contractor to
assist in developing a Sustaining Infrastructure Program to manage the prioritization of hardware
and software upgrades and replacements. On November 29, 2006, the contractor delivered its
initial inventory data assessment, including an assessment of the quality and validity of data
contained in the Information Technology Asset Management System and other asset
management tools and data sources. On December 15, 2006, the contractor delivered the results
of its asset inventory review, including a comparison of the IRS asset inventory to industry best
practices and the Government Accountability Office Information Technology Investment
Management maturity model. The contractor also recommended process improvements.
Specifically, the contractor reported:
   •   Workstation data in the Information Technology Asset Management System are largely
       accurate and complete; however, this System is not sufficiently accurate or complete for
       other information technology asset categories.



                                                                                          Page 5
                  Efforts to Update Aging Computer Hardware Are Underway, but
                       Program Improvements Are Needed to Minimize Risks



    •   Make and model information appears to be accurate but is not sufficient to determine
        replacement cost.
    •   The inventory tracking system does not contain the asset owner, location of the asset, and
        configuration management information needed to support investment decisions.
Therefore, the contractor concluded the MITS organization’s inventory tracking system does not
provide the information required to support optimal inventory investment decisions. The
contractor also reported that inefficiencies in the Information Technology Asset Management
System affect the infrastructure investment process because estimates for infrastructure
replacement cost may not be accurate and it will be difficult to determine funding requirements
for implementation of infrastructure standards.
Our review of the Information Technology Asset Management System identified similar issues.
For example, management provided us information showing that in Fiscal Year 2005
123 computer servers were purchased for $12.7 million (included $7.9 million for aged computer
hardware), including 8 Sun Microsystems Inc. Sun Fire E25K servers. However, the
December 2006 Information Technology Asset Management System reports listed only five of
the servers.
Management recognizes the problems with the Information Technology Asset Management
System and advised that corrective actions have been initiated. For example, the IRS is
implementing an automated device discovery tool to help identify information technology assets
that may not be in the Information Technology Asset Management System and to facilitate the
reconciliation of missing or inaccurate data. This effort is also examining the processes used to
maintain the data in the System to identify and implement improvements.

The IRS needs to improve and update documentation supporting the aging computer
hardware concerns
As part of our audit work, we attempted to obtain documentation supporting various
presentations to the IRS Oversight Board3 and the Office and Management and Budget that
showed the extent of infrastructure problems and their effects on operations. We compared
several sources of information and found the following issues in the information reviewed.
    •   Management provided us with a spreadsheet showing the IRS needs to spend an
        estimated $180 million annually to adequately maintain and replenish its computer
        hardware. However, management was unable to provide documentation supporting the
        replacement costs. Our review of the spreadsheet information indicates the estimated
        cost to maintain and replenish the computer hardware needs to be updated. For example,
        the spreadsheet shows the Enterprise Operations organization had 64 servers over 5 years


3
 The IRS Oversight Board is an independent body charged to provide the IRS with long-term guidance and
direction.
                                                                                                         Page 6
            Efforts to Update Aging Computer Hardware Are Underway, but
                 Program Improvements Are Needed to Minimize Risks



    old with a replacement cost of $22.4 million. However, another spreadsheet provided by
    management indicates that 123 servers were purchased in Fiscal Year 2005 for
    $12.7 million (included $7.9 million for aged computer hardware) resulting in no backlog
    of aged servers at the beginning of Fiscal Year 2006. Therefore, the IRS spent only
    35 percent ($7.9 million/$22.4 million) of the original estimate to eliminate the aged
    server hardware by the beginning of Fiscal Year 2006. Reliance on the Fiscal Year 2005
    information could result in erroneous conclusions about the aged computer hardware
    issue.
•   During a Fiscal Year 2007 budget briefing for its Oversight Board, the IRS stated the
    aging computer hardware issue is placing an increased burden on business operations. It
    stated that overall information technology problems reported to the IRS help desk
    increased 12 percent between Fiscal Years 2004 and 2005 (from 80,000 per month to
    90,000 per month). Figure 4 provides a summary of the information technology
    problems reported to the IRS help desk.




                                                                                     Page 7
                    Efforts to Update Aging Computer Hardware Are Underway, but
                         Program Improvements Are Needed to Minimize Risks



           Figure 4: Summary of Information Technology Problems Reported
                                to the IRS Help Desk
            Category                Number of         Number of        Percentage      Number of        Percentage
                                     Problem           Problem          Increase        Problem          Increase
                                     Tickets in        Tickets in      (Decrease)       Tickets in      (Decrease)
                                    Fiscal Year       Fiscal Year                      Fiscal Year
                                       2004              2005                             2006
 Get-It Problem Tickets – Used for requesting new information technology products and services.
     Get-It – Subtotals                  105,039             99,494         (5.28%)          82,813        (16.77%)
 Fix-It Tickets – Used for reporting problems with existing hardware and software.
     Communications                       13,852             13,713         (1.00%)          12,307        (10.25%)
     Customer Request4                   525,457           618,4485         17.70%          612,790         (0.91%)
     Hardware                            115,652            124,347          7.52%          141,709         13.96%
     Software                            203,669            219,839          7.94%          241,315              9.77%
     Combined Categories6                    148                315        112.84%              595         88.89%
     Fix-It – Subtotals                  858,778            976,662         13.73%        1,008,716              3.28%
 Totals                                  963,817          1,076,156         11.66%        1,091,529              1.43%
                                      (80,318 per        (89,680 per                     (90,960 per
                                          month)             month)                          month)
Source: The MITS organization.

          Our review of a report summarizing the approximately 1 million information technology
          problems/requests reported in Fiscal Year 2005 confirmed the IRS has experienced about
          a 12 percent increase in the number of problem tickets submitted by employees.
          However, we also determined 45 percent (438,274/976,662) of the Fix-It problem tickets
          were categorized as Customer Requests (i.e., password or password management policy
          subcategory requests) that do not appear to have been caused by the aged infrastructure.
          Some of the other problem ticket categories (including Communications – Data,
          Communications – Voice, Hardware – Desktop, Hardware – Laptop, and
          Hardware – Printer) could be related to the aging hardware, but the documentation on the
          problem tickets is not sufficient to determine the cause of the problem. Although the
          number of reported information technology problems is increasing, the MITS
          organization is unable to readily link these problems to aging computer hardware.


 4
   Subcategories include password, password policy, information, and other.
 5
   The password and password policy subcategories totaled 438,274 problem tickets.
 6
   The number of problem tickets includes several categories: Enterprise Service Desk Transfer, File Tracking,
 Inventory Discrepancy, and System Acceptability Testing Software Testing.
                                                                                                            Page 8
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



    •   Finally, in September 2005 in support of the Fiscal Year 2007 budget request, the IRS
        budget presentation included a page entitled Outdated and Vulnerable Information
        Technology Infrastructure Has a Negative Impact on Enforcement Revenue that reported
        the following items to the Office of Management and Budget:
        > In Fiscal Year 2004, the IRS Collection program reported it lost more than
          70 revenue officer full-time equivalent7 staff years due to computer downtime at a
          cost of roughly $70 million in uncollected tax revenue.
             Our review of the calculation of the uncollected tax revenue determined the
             Collection function uses a specific code in the employee timekeeping system to
             record computer downtime resulting in an employee being unable to perform
             assigned duties. However, the time code does not indicate whether the computer
             downtime was caused by aged computer equipment. Employees that do not use the
             specific time code to report computer downtime are interviewed to determine the
             amount of downtime. Therefore, the computer-related downtime is an estimate, and
             no analysis was performed to determine whether it was caused by aging computer
             equipment.
        > In Calendar Year 2005, the Small Business/Self-Employed Division Examination
          program reported it lost 37 revenue agent full-time equivalent staff years and 20 tax
          compliance officer full-time equivalent staff years due to computer downtime, costing
          roughly $37 million in unassessed tax revenue.
             Our review of the calculation of the lost staff years determined the Examination
             program estimated the computer downtime by talking to affected employees and
             using a general code in the employee timekeeping system. However, the time code is
             also used to record several other types of time (e.g., Combined Federal Campaign,
             workload reviews). Therefore, the computer-related downtime in this category is an
             estimate, and no analysis was performed to determine whether it was caused by aging
             computer equipment.
        > In Calendar Year 2004, the SASSER worm8 attack on IRS computer systems cost
          more than $50 million in uncollected or unassessed tax revenues because delayed
          upgrades from Windows NT software left the IRS open to attacks by computer
          viruses. Management explained that, if the hardware had been updated, the operating



7
  A measure of labor hours in which 1 full-time equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2004, 1 full-time equivalent was equal to 2,096 staff
hours.
8
  A computer worm is a self-replicating computer program that sends copies of itself to other computer terminals on
a network. The SASSER worm exploited a feature (vulnerability) of the Microsoft operating system generating
excessive network traffic and causing infected systems to become unusable due to constant rebooting.
                                                                                                           Page 9
                Efforts to Update Aging Computer Hardware Are Underway, but
                     Program Improvements Are Needed to Minimize Risks



           system software would have also been updated and the IRS would not have been
           affected by the SASSER worm.
           Our review of the May 2, 2004, SASSER worm attack determined the IRS had not
           applied a security patch that was available on April 14, 2004. The MITS organization
           was notified numerous times from April 14, 2004, through May 2, 2004, by both the
           Microsoft Corporation and the Mission Assurance and Security Services organization
           to apply the security patch; however, the security patch was not applied consistently
           to servers and was not applied to any workstations. Therefore, the problem was
           caused by a software security patch issue, not delayed upgrades of aging computer
           hardware or software, because the SASSER worm infected computers with various
           Windows operating systems including Windows 2000, Windows XP, and
           Windows 2003 server.
           Because the IRS considered the effect of the SASSER worm to be related to aged
           hardware and software, unreliable information supporting the Fiscal Year 2007
           budget request was reported to the Office of Management and Budget (see
           Appendix IV).
As a result, the IRS does not know the cost of replenishing the aged hardware because the
estimated cost is not timely updated. It also does not know the actual amount of uncollected or
unassessed tax resulting from the aging computer hardware because the information technology
problem tickets do not track the root cause of problems and uncollected and unassessed taxes are
based on estimates.
While there is risk associated with the aging computer hardware, the data provided by the IRS
should be improved to provide more complete and accurate management information related to
the negative impact the aging infrastructure is having on tax administration. Therefore,
management needs to improve its information systems and data collection methodology to help
support the need for new equipment.

Recommendations
Recommendation 1: The Chief Information Officer should implement procedures to improve
the accuracy and completeness of the inventory data on the Information Technology Asset
Management System and periodically prepare an updated aged computer hardware estimate,
including current replacement cost, based upon reliable and current information.
       Management’s Response: IRS management agreed with this recommendation.
       They will identify discrepancies in the Information Technology Asset Management
       System inventory data for correction by the appropriate asset owner and will develop
       processes to improve and maintain the accuracy of the data in the Information
       Technology Asset Management System. A process will be implemented to produce


                                                                                        Page 10
               Efforts to Update Aging Computer Hardware Are Underway, but
                    Program Improvements Are Needed to Minimize Risks



       quarterly estimates based on Information Technology Asset Management System data
       along with current estimates of the replacement costs.
Recommendation 2: The Chief Information Officer should improve the integration of
asset/inventory management with incident and problem management so problems related to old
computer hardware issues can be readily identified and the IRS can report a more accurate
assessment of the negative impact of aging computer hardware.
       Management’s Response: IRS management agreed with this recommendation and
       will develop a business case for using a software tool to improve the integration of
       asset/inventory management with incident and problem management. The business case
       will be presented to the appropriate MITS Governance Board for investment
       consideration and prioritization.
       Office of Audit Comment: In the IRS response to the draft report, management
       provided several comments that make incorrect inferences. Our reasons for disagreeing
       with each of these comments are summarized below and after other recommendations
       within the report.
          •   The Chief Information Officer commented that we did not accomplish the
              Engagement Letter objective to assess the current aging infrastructure
              environment because we did not independently validate the size or cost of the
              aged computer hardware issue. The audit report presents the results of our
              assessment of several areas of the aging infrastructure environment, including the
              information used to estimate the size and effect of the aging computer hardware,
              program funding, investment management governance, and performance
              measures.
          •   The Chief Information Officer asserted that the IRS knows the size of the aged
              information technology hardware problem and the audit team does not provide a
              position on which part of the estimate is valid and/or invalid. The IRS provided
              us with a spreadsheet showing it needs to spend an estimated $180 million
              annually to adequately maintain and replenish its computer hardware. Our review
              of the spreadsheet determined the information is not current. For example, we
              reported the IRS spent only 35 percent of its original estimate to eliminate the
              aged server hardware by the beginning of Fiscal Year 2006 (see page 6). The
              significance of the difference between the actual cost to replace the servers and
              the estimate in the spreadsheet raises a question about the accuracy of the
              estimates for the other asset categories. Therefore, the cost to maintain the
              infrastructure may be significantly lower than the IRS estimate of $180 million
              annually.
          •   The Chief Information Officer disagreed with any inference that the aged
              infrastructure is not a significant cause of information technology-related

                                                                                            Page 11
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



                  problems. The report does not state the aged infrastructure is not a problem;
                  rather, it states the IRS could not quantify the problem and inaccurate information
                  was reported externally.
             •    Chief Information Officer stated that the accuracy of the information related to the
                  “root cause” of the SASSER Worm is not an essential factor of the audit and is
                  therefore a peripheral issue. The IRS advised the Office of Management and
                  Budget that delayed software upgrades due to the aged infrastructure issue cost
                  more than $50 million in uncollected or unassessed tax revenues. Our point was
                  that this information is not correct. The problem was the IRS did not apply a
                  security patch that has nothing to do with the aged infrastructure issue.

Permanent Program Funding Remains Uncertain
Office of Management and Budget Circular A-11, Preparation, Submission, and Execution of the
Budget, requires agencies to use long-range planning and a disciplined, integrated budget process
as the basis for managing information technology investments to achieve performance goals with
the lowest costs and least risk. As part of its long-range planning to address the aging computer
hardware issue, on May 23, 2006, the IRS advised its Oversight Board that it would augment the
current $45 million it was spending by reallocating an additional $45 million achieved through
program efficiencies in each of Fiscal Years 2006 through 2008. The IRS reported in the Fiscal
Year 2008 Congressional Budget Submission it had identified efficiencies in the Fiscal
Year 2006 information technology budget that permitted the permanent reallocation of
$45 million to address the aging computer hardware issue.
Our review of the Fiscal Year 2006 funds permanently reallocated to the computer hardware
budget found the IRS was able to permanently reallocate only $34 million instead of the reported
$45 million. The IRS did exceed its Fiscal Year 2006 target computer hardware budget, but this
was accomplished by identifying other one-time funding sources such as a labor surplus. On
June 18, 2007, IRS management advised us they had permanently transferred $11 million of the
Fiscal Year 2007 MITS organization budget to the computer hardware budget. Therefore, IRS
management completed the first of its 3 permanent reallocations of $45 million to the computer
hardware budget.
In Fiscal Year 2007 (the second of 3 planned permanent reallocations), the IRS is using
$45 million in user fees9 and enrolled agent fees10 to fund additional computer hardware needs.
Realigning user fees to address computer hardware needs does not constitute a permanent
increase in base computer hardware funding because user fee funds require annual reallocation.


9
  User fees are charges individuals and businesses are required to pay for services such as installment agreements
and photocopies.
10
   An enrolled agent is a person who has earned the privilege of representing taxpayers before the IRS. Enrolled
agents pay fees for a test (if applicable) and program enrollment.
                                                                                                            Page 12
                Efforts to Update Aging Computer Hardware Are Underway, but
                     Program Improvements Are Needed to Minimize Risks



Therefore, the IRS will not meet its goal of reinvesting an additional $45 million each year from
information technology efficiencies beginning in Fiscal Year 2006 to achieve the annual
spending amount of $180 million by Fiscal Year 2008 to maintain and replenish the aging
computer hardware.
Although the IRS considers the need to obtain increased resources to reverse the erosion of its
basic computer hardware as one of its highest budget priorities and has requested an additional
$240 million from Congress over a 4-year period beginning in Fiscal Year 2008, it has not
permanently reallocated the necessary funding into the MITS organization’s base budget for
computer hardware replacement to adequately maintain and replenish its hardware. The funds
were not permanently reallocated to increase computer hardware funding because they were used
to absorb reductions to the Fiscal Year 2007 budget. Until funds are permanently reallocated to
the computer hardware budget, the ability to adequately maintain and replenish the old hardware
will remain uncertain, thereby increasing the risk of disruptions to operations and the risk of
potential uncollected or unassessed tax revenues.

Recommendation
Recommendation 3: The Chief Information Officer should permanently allocate the
necessary funds within the MITS organization budget to maintain and replenish the aging
computer hardware.
       Management’s Response: IRS management disagreed with this recommendation
       because the Chief Information Officer cannot commit to permanently allocating funds in
       future years without fully understanding tax administration requirements and budget
       constraints. However, the IRS agreed that sustaining the information technology
       infrastructure is one of its highest priorities; it will realign the base budget whenever
       appropriate, subject to availability.
       Office of Audit Comment: We disagree and believe the Chief Information Officer
       should honor the commitment made to the IRS Oversight Board on May 23, 2006, that
       the IRS would augment the current $45 million being spent on infrastructure by
       reallocating an additional $45 million from program efficiencies achieved in each of
       Fiscal Years 2006 through 2008. In addition, the IRS reported in the Fiscal Year 2008
       Congressional Budget Submission it had identified efficiencies in the Fiscal Year 2006
       information technology budget that permitted the permanent reallocation of $45 million
       to address the aging computer hardware issue. However, our review of the Fiscal Year
       2006 funds permanently reallocated to the computer hardware budget found the IRS was
       able to permanently reallocate only $34 million instead of the reported $45 million.




                                                                                          Page 13
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



         We also disagree with the Chief Information Officer’s comment that we interpreted the
         IRS’ goal to realign the MITS organization base budget as a requirement. We
         consistently discuss the realignment of funds to the infrastructure budget as a goal.

A Disciplined Investment Management Governance Process Is
Needed for All Infrastructure Initiatives/Activities
The Clinger-Cohen Act of 1996 requires agencies to use a disciplined capital planning and
investment control process to maximize the value of information technology investments and
manage the acquisition risk. The capital planning and investment control process is a
decision-making process for ensuring information technology investments integrate strategic
planning, budgeting, procurement, and management of information technology in support of the
agency’s mission and business needs. When evaluating information technology investments, the
agency should conduct the review from an enterprisewide perspective to use information
technology to drive strategic business change.
The IRS’ Capital Planning and Investment Control process for managing information technology
projects includes an executive governance process for monitoring projects. The process includes
the MITS Enterprise Governance Committee11 and executive steering committees responsible for
specific projects. Specifically, the Infrastructure Executive Steering Committee was established
to ensure the successful implementation and integration of modernization projects and related
program activities for the Infrastructure portfolio. Major projects with costs of more than
$5 million each year or more than $50 million in total life cycle costs are to be governed by the
executive governance process.
Our review of the End of Life Equipment Replacement activity
determined the MITS organization has not included                                     With all infrastructure
expenditures from this activity as part of its investment                               initiatives/activities
governance process. The Enterprise Operations organization                          following the established
                                                                                      executive governance
has 12 ongoing Rust Replacement projects; it received more                             process, the IRS can
than $20 million in Fiscal Year 2005 and more than $39 million                      assure proper equipment
in Fiscal Year 2006 to replace aging computer hardware.                             expenditure prioritization
Therefore, the End of Life Equipment Replacement activity                           and the most efficient use
would qualify under the IRS information technology investment                        of available resources.
control process as a major project warranting executive steering
committee governance.



11
  The highest level recommending and decision-making body to oversee and enhance enterprise management of
information systems and technology. It ensures strategic modernization and information technology program
investments, goals, and activities are aligned with and support 1) the business needs across the enterprise and 2) the
modernized vision of the IRS.
                                                                                                             Page 14
                Efforts to Update Aging Computer Hardware Are Underway, but
                     Program Improvements Are Needed to Minimize Risks



Although the Infrastructure Executive Steering Committee is designated as the decision-making
body responsible for successful implementation and integration of all infrastructure
initiatives/activities, the End of Life Equipment Replacement activity does not report to the
Infrastructure Executive Steering Committee for oversight and follows a formalized investment
decision process when requesting funds for individual projects. For this activity, each MITS
organization identifies its equipment needs and related projects and submits these funding needs
to MITS organization executives for review, approval, prioritization, and funding. As a result,
the ad hoc investment management process is particularly apparent at the end of a fiscal year
when additional funds become available. The Enterprise Operations organization received its
Fiscal Year 2006 funding for the End of Life Equipment Replacement activity at the end of
Fiscal Year 2006. In addition, because the End of Life Equipment Replacement activity is not
considered an information technology investment project, it is not reflected in the IRS Enterprise
Transition Plan, which is a key IRS modernization document that facilitates a strategic
investment decision-making process from an enterprisewide perspective.
Without a disciplined investment management decision-making and governance process that
evaluates information technology investments from an enterprisewide perspective, the IRS may
not assure the proper prioritization of projects to ensure investment decisions result in the most
efficient use of available resources to address the aging computer hardware issue. The
implementation of a disciplined investment management process will become even more critical
by Fiscal Year 2008 when the IRS may have $240 million ($180 in the aged computer hardware
budget and $60 million in additional budgeted funds) to spend on maintaining and replenishing
the aged computer hardware.
MITS organization management advised us that several actions have been taken to improve the
discipline of the governance process over infrastructure investments. For example, an
engineering review was conducted on the approved Fiscal Year 2007 funding requests, which
were then ranked and prioritized using a structured process and scoring criteria and submitted to
the MITS Enterprise Governance Committee for final review. In addition, the Infrastructure
Executive Steering Committee and the MITS Enterprise Governance Committee will be
responsible for future governance of the Sustaining Infrastructure Program.

Recommendation
Recommendation 4: The Chief Information Officer should ensure the End of Life Equipment
Replacement activity is included in the Infrastructure Executive Steering Committee governance
process.
       Management’s Response: IRS management agreed with this recommendation and
       will implement a governance model that includes oversight from the Infrastructure
       Executive Steering Committee.



                                                                                           Page 15
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



        Office of Audit Comment: The Chief Information Officer disagreed that
        improvements in the 2007 investment process did not help the IRS successfully identify
        the highest priority infrastructure investments. The audit report did not suggest this. The
        report states the investment process could be further improved by ensuring the End of
        Life Equipment Replacement activity was reporting to an executive steering committee.
        Based on the amount of money being spent on the activity, the established MITS
        organization governance process for information technology investments should be
        followed to ensure all business units are involved in and aware of the prioritization. In
        addition, some of the improvements mentioned in the IRS response are discussed on
        page 15 of the report.

Performance Measures Are Needed to Assess the Success of Efforts
to Address the Aging Computer Hardware Issue
The Government Performance and Results Act of 199312 was enacted by Congress to hold
Federal Government agencies accountable for achieving business results by requiring agencies to
adopt performance measures and set goals to assess performance. The Clinger-Cohen Act of
1996 specified that the agency Chief Information Officer is responsible for monitoring the
performance of the agency’s information technology programs; evaluating the performance of
those programs on the basis of applicable performance measures; and advising the agency head
regarding whether to continue, modify, or terminate the program or project. To comply with the
Clinger-Cohen Act of 1996 and Office of Management and Budget guidelines, each agency’s
information technology investment planning process must include periodic evaluations of project
performance as measured against predefined outcome goals to assess how well information
technology investments improve the efficiency and effectiveness of the agency’s operations.
The MITS organization uses the Business Process Management System for reporting measures
on asset management, customer satisfaction, incident management, and the enterprise service
desk. The contractor assisting the IRS in developing its Sustaining Infrastructure Program has
been assigned the task of formalizing a performance measurement process for the overall
Sustaining Infrastructure Program and the individual initiatives/activities. The contractor has
provided some preliminary portfolio metrics, and the metrics will be refined and finalized at the
time the Implementation Plan is completed. The draft Implementation Plan was delivered to the
IRS in April 2007 and is currently under review.
Once these performance measures are developed, the IRS will be able to assess whether current
efforts to address the aging computer hardware problem are meeting expectations and achieving
anticipated business results. Management advised us that performance measures have not been
established because the IRS is focusing its efforts on identifying and addressing the highest


12
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 16
               Efforts to Update Aging Computer Hardware Are Underway, but
                    Program Improvements Are Needed to Minimize Risks



priority aged computer hardware needs and has not developed measures to assess its
effectiveness. Management also advised us that once the Sustaining Infrastructure Program is
implemented the MITS organization will have a process in place to assess its efforts in
addressing the aging computer hardware problem.

Recommendation
Recommendation 5: The Chief Information Officer should ensure a performance
measurement process providing periodic monitoring and reporting of Sustaining Infrastructure
Program accomplishments is established for current and future efforts to address the aging
computer hardware issue.
       Management’s Response: IRS management agreed with this recommendation and
       will implement outcome measures and a monitoring process to report on the IRS’
       progress in reducing its aged asset inventory.
       Office of Audit Comment: The Chief Information Officer commented it is not
       accurate to infer that the IRS has not developed such metrics; specifically, the IRS has
       developed measures for asset management. We reported on page 16 of this report that the
       MITS organization uses the Business Process Management System for reporting
       measures on asset management, customer satisfaction, incident management, and the
       enterprise service desk. The report clearly states the issue is that performance measures
       are needed for the Sustaining Infrastructure Program and states a contractor is in the
       process of developing the measures.




                                                                                        Page 17
                Efforts to Update Aging Computer Hardware Are Underway, but
                     Program Improvements Are Needed to Minimize Risks




                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS implemented effective
controls to identify and replace aging equipment components that could adversely affect its
ability to meet its mission if the equipment components were to fail. To accomplish this
objective, we:
I.     Assessed the current aging infrastructure environment.
       A. Reviewed the results of studies establishing the current size and expected growth of
          the aging infrastructure, actual and potential financial effects from use of the outdated
          equipment (e.g., increased maintenance costs, loss of revenue), and the estimated IRS
          funding necessary to maintain and replace the aging infrastructure.
       B. Reviewed other presentations made by the IRS to communicate the severity of the
          aging infrastructure problem and its effect on expenditures and revenues.
       C. Identified the measures taken by the IRS to validate the reported severity of the aging
          infrastructure problem and the estimated costs to replace outdated equipment.
       D. Reviewed documentation supporting key elements of the aging infrastructure problem
          to justify funding the program (e.g., size of the aging inventory, loss of revenue,
          replacement costs).
       E. Obtained infrastructure aging reports from the Information Technology Asset
          Management System to determine the information available to assess the reported
          aging infrastructure inventory. We interviewed IRS management to determine
          whether infrastructure aging information is entered into the Information Technology
          Asset Management System. Also, we determined whether IRS management uses the
          reports to monitor the aging infrastructure.
II.    Determined the effectiveness of the infrastructure governance process.
       A. Interviewed Enterprise Services organization and Enterprise Operations organization
          personnel to determine the governance structure and investment decision-making
          process for the sustaining infrastructure program and individual initiatives.
       B. Reviewed documentation describing the governance structure and investment
          decision-making process (e.g., project identification, prioritization, approval,
          monitoring).


                                                                                             Page 18
               Efforts to Update Aging Computer Hardware Are Underway, but
                    Program Improvements Are Needed to Minimize Risks



       C. Reviewed the meeting minutes of the governance bodies (e.g., executive steering
          committees, investment review boards) over the sustaining infrastructure program and
          individual initiatives.
III.   Determined the status of the sustaining infrastructure program and individual initiatives.
       A. Interviewed Enterprise Services organization and Enterprise Operations organization
          personnel to discuss the aging infrastructure problem and the status of the overall
          program and individual initiatives (e.g., Rust Replacement, Infrastructure Roadmap)
          established to reduce the risks.
       B. Reviewed project documentation for the sustaining infrastructure program, including
          the current project schedule, key milestones, and planned completion dates.
       C. Reviewed status reports for the sustaining infrastructure program and the individual
          initiatives.
       D. Identified the performance measures established to assess the effectiveness of the
          program and to support program-level analysis and status reporting.
       E. Identified the processes for gathering the data to accurately measure and report
          program performance.
       F. Identified planned funding for the Sustaining Infrastructure Program and individual
          initiatives for Fiscal Years 2005 through 2009, including actual expenditures through
          Fiscal Year 2006.
Data Validity and Reliability
       We used computer-processed data to review the inventory and cost of the aged computer
       hardware, the information technology problem tickets, and the amount of funds spent on
       the aged computer hardware. The IRS hired a contractor to perform an asset inventory
       review, and the contractor concluded the MITS organization’s inventory tracking system
       does not provide the information required to support optimal inventory investment
       decisions. Based on interviews and our review of Information Technology Asset
       Management System data, we also concluded the information could be improved.
       Therefore, we used IRS-provided information during the audit and did not independently
       validate the size or cost of the aged computer hardware issue.
       The IRS uses the reporting and tracking tool within the Information Technology Asset
       Management System to control its problem tickets and reported it had more than
       1 million information technology problem ticket requests in Fiscal Year 2005. It
       provided us with a summary report of the problem tickets, by category, totaling more
       than 1 million tickets. An IRS employee advised us the problem ticket data are a unique
       and computer-generated assessment based upon specific and applied criteria and the data
       provided to us were validated for accuracy. We checked the reasonableness of the

                                                                                          Page 19
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



        information in the summary report by comparing it to the number of tickets the IRS had
        previously reported. The data appeared to be reasonably accurate for the purposes of this
        audit, and we performed no additional data validity tests.
        The IRS provided data from the Integrated Financial System1 for Fiscal Years 2005
        through 2007 regarding funding amounts for aged computer hardware. We relied
        on the Government Accountability Office’s assessment of the reliability of the
        computer-processed data from the Integrated Financial System. During a review of the
        IRS’ financial statements,2 the Government Accountability Office concluded the expense
        and reimbursable revenue information processed through the Integrated Financial System
        for Fiscal Years 2005 and 2006 was reliable in all material respects.




1
  The Integrated Financial System is intended to address administrative financial management weaknesses. The first
release of the Integrated Financial System will include the Accounts Payable, Accounts Receivable, General Ledger,
Budget Execution, Cost Management, and Financial Reporting activities. A future Integrated Financial System
release will be needed to fully resolve all administrative financial management weaknesses.
2
  Financial Audit: IRS’s Fiscal Years 2006 and 2005 Financial Statements (GAO-07-136, dated November 2006).
                                                                                                         Page 20
               Efforts to Update Aging Computer Hardware Are Underway, but
                    Program Improvements Are Needed to Minimize Risks



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Van Warmke, Lead Auditor
Glen Rhoades, Senior Auditor
Beverly Tamanaha, Senior Auditor
Tina Wong, Senior Auditor
Charlene Elliston, Auditor




                                                                                     Page 21
              Efforts to Update Aging Computer Hardware Are Underway, but
                   Program Improvements Are Needed to Minimize Risks



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer OS:CIO
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Associate Chief Information Officer, Management OS:CIO:M
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                 Page 22
                   Efforts to Update Aging Computer Hardware Are Underway, but
                        Program Improvements Are Needed to Minimize Risks



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $50 million incorrectly reported (see page 4).

Methodology Used to Measure the Reported Benefit:
In support of the Fiscal Year 2007 budget request, the IRS reported in September 2005 to the
Office of Management and Budget that (1) delayed upgrades from Windows NT software left it
open to attacks by computer viruses and (2) the 2004 SASSER worm1 attack on its computer
systems cost more than $50 million in uncollected or unassessed tax revenues. Management
explained that, if the hardware had been updated, the operating system software would have also
been updated and the IRS would not have been affected by the SASSER worm.
Our review of the May 2, 2004, SASSER worm attack determined the IRS had not applied a
security patch that was available on April 14, 2004. The MITS organization was notified
numerous times from April 14, 2004, through May 2, 2004, by both the Microsoft Corporation
and the Mission Assurance and Security Services organization to apply the patch; however, the
patch was not applied consistently to servers and was not applied to any workstations.
Therefore, the problem was caused by a software security patch issue, not delayed upgrades of
aging computer hardware or software, because the SASSER worm infected computers with
various Windows operating systems including Windows 2000, Windows XP, and Windows 2003
server.




1
  A computer worm is a self-replicating computer program that sends copies of itself to other computer terminals on
a network. The SASSER worm exploited a feature (vulnerability) of the Microsoft operating system generating
excessive network traffic and causing infected systems to become unusable due to constant rebooting.
                                                                                                          Page 23
    Efforts to Update Aging Computer Hardware Are Underway, but
         Program Improvements Are Needed to Minimize Risks



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 24
Efforts to Update Aging Computer Hardware Are Underway, but
     Program Improvements Are Needed to Minimize Risks




                                                      Page 25
Efforts to Update Aging Computer Hardware Are Underway, but
     Program Improvements Are Needed to Minimize Risks




                                                      Page 26
Efforts to Update Aging Computer Hardware Are Underway, but
     Program Improvements Are Needed to Minimize Risks




                                                      Page 27
Efforts to Update Aging Computer Hardware Are Underway, but
     Program Improvements Are Needed to Minimize Risks




                                                      Page 28
Efforts to Update Aging Computer Hardware Are Underway, but
     Program Improvements Are Needed to Minimize Risks




                                                      Page 29
